AMERICAN CIVIL LIBERTIES
UNION FOUNDATION

American Civil Liberties Foundation
Voting Rights Project
National Office
125 Broad Street, 18th Floor
New York, NY 10004-2400
(212) 549-2500
aclu.org

October 28, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Donald J. Trump, et al. v. New York, et al., No. 20-366

Dear Clerk Harris:
Pursuant to Supreme Court Rule 37.3(a), the New York Immigration
Coalition, et al., Respondents hereby provide their blanket consent to the filing
of amicus briefs in support of either or neither party in this case.
Thank you for your kind assistance in this matter.
Respectfully submitted,

Dale E. Ho
Counsel of Record for
Respondents New York
Immigration Coalition, et al.

cc: See attached service list

SERVICE LIST: No. 20-366, Donald J. Trump, et al. v. New York, et al.

Jeffrey Wall
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
Barbara D. Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
Barbara.Underwood@ag.ny.gov

